HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Blue Cross and Blue Shield of Georgia, Inc."(A-05-03-00087)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Blue Cross
and Blue Shield of Georgia, Inc." (A-05-03-00087)
October 21, 2003
Complete
Text of Report is available in PDF format (268 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments
contained in our database of payments made under the administrative responsibility of Blue Cross and Blue Shield of Georgia,
Inc. (BCBS of Georgia). We estimated that $1.1 million of ineligible SNF payments were made during calendar years 1997
through 2001. The overpayments occurred because of the absence of an automated cross-check, within the Centers for Medicare & Medicaid
Services Common Working File and the Fiscal Intermediary’s claims processing systems, verifying that a three consecutive
day inpatient hospital stay occurred prior to SNF admission.